<html>
<title> - TARGET ACT; CAESAR SYRIA CIVILIAN. PROTECTION ACT OF 2017; AND FREDERICK DOUGLASS TRAFFICKING VICTIMS PREVENTION AND PROTECTION REAUTHORIZATION ACT OF 2017</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                   TARGET ACT; CAESAR SYRIA CIVILIAN
                 PROTECTION ACT OF 2017; AND FREDERICK
                DOUGLASS TRAFFICKING VICTIMS PREVENTION
                   AND PROTECTION REAUTHORIZATION ACT
                                OF 2017

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                   H.R. 1625, H.R. 1677 and H.R. 2200

                               __________

                              MAY 3, 2017

                               __________

                           Serial No. 115-29

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       
        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                 U.S. GOVERNMENT PUBLISHING OFFICE                    
25-322 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c8afb8a788abbdbbbca0ada4b8e6aba7a5e6">[email&#160;protected]</a>                                
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP ON

H.R. 1625, To amend the State Department Basic Authorities Act of 
  1956 to include severe forms of trafficking in persons within 
  the definition of transnational organized crime for purposes of 
  the rewards program of the Department of State, and for other 
  purposes.......................................................     2
H.R. 1677, To halt the wholesale slaughter of the Syrian people, 
  encourage a negotiated political settlement, and hold Syrian 
  human rights abusers accountable for their crimes..............     5
  Amendment in the nature of a substitute to H.R. 1677 offered by 
    the Honorable Eliot L. Engel, a Representative in Congress 
    from the State of New York...................................    58
      Amendment to the amendment in the nature of a substitute to 
        H.R. 1677 offered by the Honorable Brian J. Mast, a 
        Representative in Congress from the State of Florida.....   108
H.R. 2200, To reauthorize the Trafficking Victims Protection Act 
  of 2000, and for other purposes................................   110
  Amendment in the nature of a substitute to the Honorable 
    Christopher H. Smith, a Representative in Congress from the 
    State of New Jersey..........................................   154
      Manager's amendment to the amendment in the nature of a 
        substitute to H.R. 2200 offered by the Honorable Edward 
        R. Royce, a Representative in Congress from the State of 
        California, and chairman, Committee on Foreign Affairs...   197
      Amendment to the amendment in the nature of a substitute to 
        H.R. 2200 offered by the Honorable Ann Wagner, a 
        Representative in Congress from the State of Missouri....   198

                                APPENDIX

Markup notice....................................................   232
Markup minutes...................................................   233
Markup summary...................................................   235
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........   236
The Honorable Bradley S. Schneider, a Representative in Congress 
  from the State of Illinois: Prepared statement.................   238

 
                   TARGET ACT; CAESAR SYRIA CIVILIAN.
                 PROTECTION ACT OF 2017; AND FREDERICK
                      DOUGLASS TRAFFICKING VICTIMS
                       PREVENTION AND PROTECTION
                      REAUTHORIZATION ACT OF 2017

                              ----------                              


                         WEDNESDAY, MAY 3, 2017

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:07 a.m., in 
room 2172, Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. This hearing will come to order. All of the 
members please take your seats at this time.
    You know, members in this committee, we have a long history 
of leading the fight against human trafficking. Today we 
consider some additional measures in this effort.
    I am going to ask everybody to come to order.
    Pursuant to notice, we meet today to mark up three 
bipartisan bills. Without objection, all members may have 5 
days to submit statements or extraneous material into the 
record on today's business.
    As members were notified yesterday, we intend to consider 
today's measures en bloc. And so without objection, the 
following items, previously provided to members and in your 
packets, will be considered en bloc and are considered as read.
    And they are H.R. 1625, Targeted Rewards for the Global 
Eradication of Human Trafficking Act; H.R. 1677, the Caesar 
Syria Civilian Protection Act of 2017, with the Engel amendment 
in the nature of a substitute to H.R. 1677, and the Mast 
amendment 7 to the Engel amendment; H.R. 2200, the Frederick 
Douglass Trafficking Victims Prevention and Protection 
Reauthorization Act of 2017, with the Smith amendment in the 
nature of a substitute to H.R. 2200, Royce's manager's 
amendment 33, and Wagner amendment 6 to the Smith amendment.
    [The information referred to follows:]
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Royce. I now recognize myself for such time as I 
may consume to speak on the bills here.
    So as I mentioned, we have this long history on this fight 
against human trafficking. And I would mention that almost all 
the members of this committee have been involved in this debate 
or in legislation trying to move this issue. I especially want 
to thank Chris Smith for his leadership on it over the years.
    And I think the thing that strikes us is that human 
trafficking today is now perpetrated by organized crime in a 
very brutal way, in a very sophisticated criminal enterprise. 
And the profits from this illicit industry contribute to the 
expansion that we are seeing of organized crime around the 
world and contribute, frankly, not just to organized crime, but 
to terrorism itself here in the United States and in Europe and 
Africa and Asia.
    And that is why combating human trafficking requires a 
global approach to identifying and apprehending the worst 
offenders in the world.
    The TARGET Act specifically authorizes the State Department 
and law enforcement to target international human traffickers 
by offering rewards for their arrest or conviction, rewards 
that will apply anywhere on earth. I want to thank my cosponsor 
here, Representative Lois Frankel, for her good work, working 
with me on this measure, as well as the trips she has taken to 
look into this measure.
    I also want to thank our subcommittee chairman again Chris 
Smith, and Ranking Member Karen Bass, for H.R. 2200, the 
Frederick Douglass Trafficking Victims Prevention and 
Protection Reauthorization Act. This ambitious bill not only 
extends the legal authorities from the groundbreaking 
Trafficking Victims Protection Act that, as I recall, Mr. Smith 
authored 17 years ago, but it also contains important reforms 
to our foreign and domestic antitrafficking programs.
    Although only the foreign portions are part of today's 
markup, the bill makes clear that human trafficking is a global 
scourge that requires a global response, and this bill 
strengthens the State Department's annual TIP Report and the 
country tier rankings. If you will recall, this is the way we 
name and shame those governments around the globe that don't 
take part in being part of the solution, but instead are part 
of the problem. So namely, with this legislation, there is 
accountability. They must tell the truth about the trafficking 
situation on the ground.
    These facts should not be subject to manipulation for the 
sake of diplomatic or economic or political considerations. It 
brings that accountability to our side in the equation.
    And lastly, for 6 years we have watched the regime of 
Bashar al-Assad wage a relentless war against the people of 
Syria--from the deliberate and frequent bombing of schools and 
hospitals to its widespread use of torture and starvation as 
weapons of war.
    And of course there is Assad's repeated use of chemical 
weapons. Just last month we saw footage of entire families 
snuffed out by sarin gas. Assad's brutality--and his support 
from Russia and Iran and Hezbollah--has fueled a mass migration 
crisis and regional instability that, frankly, threatens our 
national security.
    H.R. 1677, the Caesar Syrian Civilian Protection Act, 
increases the cost to Assad and to his backers for their 
continued war crimes. Under the bill, foreign companies and 
banks will have to choose. They will have to choose between 
doing business with the Assad regime or doing business with the 
United States.
    This bill is a step toward regaining leverage and imposing 
accountability for Assad's flagrant violations of international 
norms and human decency. I want to thank Ranking Member Engel 
for his leadership and response to the Syrian conflict and on 
this important legislation before us.
    And I now recognize Mr. Eliot Engel of New York for his 
opening remarks.
    Mr. Engel. Thank you, Mr. Chairman. Thank you very much. I 
am grateful that you have called this markup, and I am glad 
that we are advancing three good pieces of legislation today. I 
will start with the bill I authored, the Caesar Syria Civilian 
Protection Act. I want to thank Chairman Royce for joining me 
as the lead Republican cosponsor of this bill, and I think it 
is fair to say that this legislation would not have moved so 
fast if it weren't for Chairman Royce.
    When Caesar visited our committee nearly 3 years ago, he 
showed us the horror of Assad's war against the Syrian people. 
No one sitting in this room who saw that could ever forget 
those images. We know in the years since that nothing has 
gotten better in Syria.
    As we heard again and again during our hearing last week, 
the United States needs a clear, coherent strategy to address 
the 6-year-old crisis raging in Syria. We need to push for a 
political solution that ends the Assad regime's campaign of 
carnage, removes Assad from power, and helps the Syrian people 
rebuild and chart the course for the future of their country.
    That is no small task, especially after so much time, after 
so much senseless death. Each time we have seen the Assad 
regime on the ropes, they get another lifeline, often from 
their most devoted enablers, Russia and Iran, and, of course, 
Hezbollah goes along with Iran. So part of dialing up the 
pressure on Assad, part of pushing for that solution means 
cutting off those lifelines, and that is what my legislation 
aims to do.
    This sanctions bill would crack down on anybody who does 
business with the Assad regime. We want to go after the money 
flowing to Assad. We want to go after the actual hardware that 
is driving his ability to murder the Syrian people, from the 
airplanes and weapons that spell doom for innocent civilians to 
the oil and spare parts that keep that machinery running.
    Sanctions worked with Iran, and they will work with Syria. 
If you are taking the side of the butcher in Damascus over the 
Syrian people, you are going to get caught up in these 
sanctions. This means Iran. This means Russia. The blood of the 
Syrian people is on their hands, as well.
    And as we are cracking down on those responsible for this 
war, we will also be taking names. Down the road those guilty 
of war crimes must face the consequences. This bill would 
require reporting on human rights violators and support 
evidence-gathering to aid eventual prosecutions for war crimes 
and crimes against humanity.
    This measure includes some flexibility. After all, if 
conditions change and negotiations were in sight, the ability 
to suspend sanctions could be a useful initiative if it led to 
a cessation of violence against civilians.
    This bill also takes a few specific steps to aid and 
protect civilians right now and in the future, such as 
ratcheting up oversight of assistance flowing to Syria and 
evaluating the feasibility of a no-fly zone, which, frankly, I 
think we should have put into effect years ago.
    Last year this committee marked up this bill and it passed 
unanimously in the House. I again ask for the support of all 
members, and I hope this time we can get it across the finish 
line and that the other body will move it, as well.
    I also want to quickly mention the other two bills we are 
marking up today, both of which deal with the commitment of the 
United States to confront the horror of modern day slavery, 
what we call trafficking in persons.
    The Trafficking Victims Prevention and Protection 
Reauthorization Act is the latest update to the Trafficking 
Victims Protection Act, which President Clinton signed in the 
year 2000. Each reauthorization has built on the success of 
that first law, making protection for survivors more effective, 
improving the way we prevent this crime, and ensuring that we 
are prosecuting those responsible.
    The State Department's Trafficking in Persons Report is the 
global gold standard for assessing how well governments, 
including our own, are meeting their responsibility to fight 
this crime. This bill refines the tier ranking system in the 
annual report, ensuring that Congress has a better idea of why 
the State Department decides to move a particular country up or 
down in the rankings.
    I am glad to support this measure, and I thank Chairman 
Chris Smith for all his hard work. And I want to say something 
about Chris Smith. I think he is the only one on this committee 
that has actually been on this committee longer than me, and 
from the moment I got to the committee he has been a tireless 
fighter for all the rights, including human trafficking, for so 
many years. He has really been the leader, and he is 
persistent, and he perseveres through different 
administrations, thick and thin, Republican and Democratic.
    So, Chris, I want to just single you out because you have 
just been exemplary. And I know from our talks what deep 
feelings you hold for this. So I just want to publicly thank 
you for your good work through the years.
    You can applaud.
    [Applause.]
    Mr. Engel. I am also glad to support legislation authored 
by Chairman Royce, along with Representative Frankel, which 
would improve efforts to bring traffickers to justice.
    The Targeted Rewards for the Global Eradication of Human 
Trafficking, or TARGET Act, would expand the Rewards for 
Justice Program to include human trafficking. This program was 
created to allow the U.S. Government to pay for information 
leading to an arrest or a conviction in an international 
terrorism case. Congress has since expanded it to include other 
crimes, and with this bill, human trafficking would be added to 
the list.
    It is a good, commonsense bill, and I am grateful to the 
chairman for bringing it forward, and I thank Ms. Frankel, as 
well.
    So, again, thank you, Mr. Chairman. I want to thank all our 
members for their hard work. And I yield back.
    Chairman Royce. Thanks, Mr. Engel.
    Do any other members seek recognition?
    Mr. Smith.
    Mr. Smith. Thank you very much, Mr. Chairman. Thank you for 
your leadership on this committee, for the bipartisan way that 
you handle the issues, making sure that we work as a team.
    And I especially want to thank you for your kind remarks, 
and those of Eliot Engel, who it is a joy and honor to work 
with. Thank you so much, both of you, for your support for this 
bill, for this ongoing effort to eradicate modern day slavery.
    The numbers are overwhelming, over 20 million, some put it 
closer to 30 million men and women, mostly women, mostly 
children, who are enslaved, 4\1/2\ million of whom are sex 
trafficked, the remainder are victims of labor trafficking. 
Sometimes there is a duality there where someone who is labor 
trafficked is also abused sexually. It is a terrible blight on 
humanity. And we, the United States, have taken the lead. Many 
other countries have followed that lead, but we are still 
nowhere near the point where this terrible modern day slavery 
has been ended.
    This new legislation, I want to thank Karen Bass, who is 
the principal cosponsor. I want to thank other members of this 
committee, including Ms. Frankel, who is an original sponsor, 
Mr. Poe, Mr. Brooks, Ms. Jackson Lee is also on, Mrs. Wagner, 
Mr. Costello. And, of course, Chairman Royce, thank you for 
adding the gravitas of your name as a principal sponsor.
    It is bipartisan. It is named after Frederick Douglass. And 
we celebrate the 200th anniversary of Frederick Douglass' 
birthday in 1818 next year. And if ever there was--and I am in 
the process of reading one of his autobiographies right now--we 
all know he was one of the most dedicated abolitionists of the 
last two centuries and made an enormous difference in ending 
slavery, chattel slavery, here in the United States.
    I would point out, as I said at yesterday's hearing, he was 
a great orator, self-educated, an author, an editor, a 
statesman. And I would point out to my friends on the other 
side of the aisle, he was a Republican, Frederick Douglass.
    So this legislation puts a big emphasis on some new 
initiatives, including the wonderful work that is being done to 
make our airlines and other modes of transportation 
situationally aware, particularly flight attendants and pilots. 
It provides a complete reauthorization of those parts of the 
TVPA that need to be reauthorized, many of the programs that 
have made a difference.
    The TIP office, 55-or-so-person-strong State Department 
office, has done yeoman's work, and it tries to depoliticize, 
hopefully forever, any interventions on the part of other 
people at the State Department, so that the TIP Report truly is 
the gold standard when we read about any country, including our 
own, which is also in the TIP Report, and we know with 
certainty it is an honest reflection of the situation on the 
ground. And this legislation tries to move the ball in that 
area.
    Yesterday Melysa Sperber, who is the director of ATEST, the 
Alliance to End Slavery and Trafficking, one of the groups that 
testified yesterday, it is a 13 NGO-large anti-human 
trafficking organization, she made a very important and 
valuable insight about the bill, as well as the state of 
affairs. There are three P's to combat human trafficking: 
Prosecution, protection of the victims, and prevention.
    The laggard of the three P's is the prevention P. This 
legislation tries, to the greatest extent possible, to address 
unmet needs on the prevention side, including, although not 
part of the jurisdiction of this committee, it has been 
referred to a few other committees, making sure that the 
Elementary and Secondary Education Act includes curriculum and 
training so that our young people will be forewarned and 
hopefully empowered so that they in no way will become victims 
in the future.
    Again, it is a very comprehensive bill. I will gladly 
answer any question anybody might have on it. But again, I want 
to thank the distinguished chair and the ranking member and 
Karen Bass for their leadership on the bill.
    Chairman Royce. And we will go to Karen Bass from 
California.
    Ms. Bass. Thank you. Thank you, Mr. Chair and Chairman 
Smith for your leadership on this over many years, in 
particular Chairman Smith, who really was the leading force in 
the House for many years on the trafficking issue. And to see 
it extended now in this new bill, and especially the focus on 
prevention, I think is really going to be key.
    The public education that is covered in this bill--
educating children, teachers, hotel workers, airline staff--is 
really critical because human trafficking can be spotted and 
stopped in many different ways.
    In Los Angeles we have had a couple of cases where 
diplomats were actually keeping domestic workers enslaved, and 
because they escaped and ran down the street and we had 
neighbors that were aware, they were able to spot what was 
going on and the situation was halted. So I think the education 
part of this bill is critically important.
    There is also a part of this bill that talks about child 
soldiers. And just a couple of weeks ago we had a markup about 
the famine that is taking place in South Sudan as well as 
Nigeria, and both of the famines that are happening in those 
two countries are completely related to the conflict. And Boko 
Haram is well known for taking child soldiers. And what they 
are doing now with children is unbelievably despicable, making 
them carry bombs and blowing themselves up. You can't call it a 
suicide bomb because the person didn't voluntarily do that. 
They were forced into exploding themselves in a marketplace. 
This bill addresses child soldiers, and we also know that that 
is an issue in South Sudan.
    At yesterday's hearing, I know that this part of the markup 
is just about the international part, but I do want to note 
that in yesterday's hearing we talked about the domestic side 
of this issue and the fact that a number of girls, the average 
age is 12, that are involved in sex trafficking, who are U.S.-
born girls, are children from the foster care system. And if 
you think about that, if you are a child in foster care, you 
are under the authority of the government. So it is our 
governments, local and State, that have failed these girls, 
that have allowed them to fall through the cracks and fallen 
into being trafficked.
    So I know we will address that in other committees, but I 
wanted to make note of that because it came up in the hearing. 
And I want to thank again the chairman, both chairmen, for 
their leadership on this issue over many, many years. I yield 
back my time.
    Chairman Royce. Mr. Rohrabacher of California.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. I would 
like to commend you, Mr. Chairman, for your leadership on this 
issue of child abduction and human trafficking. You have taken 
a number of areas of interest, Mr. Chairman. That has been one 
since you have been chairman of this, as well as North Korea, 
and in both cases you obviously had your finger on the pulse of 
evil in this world and what we had to pay attention to.
    I would like to thank my other colleagues who are involved 
in these two acts aimed at human trafficking, and, of course, I 
am very supportive of both of those efforts.
    Let me say with that, I oppose the second bill, H.R. 1677, 
aimed at Syria. To me it again demonstrates the double standard 
that we have had toward Syria and which is not going to lead to 
a more peaceful world, that in the end if we do get rid of 
Assad, even though Assad is no more brutal than many of these 
other regimes that are our friends, we get rid of him, we are 
going to have a terrorist regime.
    Anybody here want to guarantee us that we won't have what 
happened to Qadhafi, where we have Qadhafi replaced by 
terrorists? We have a situation, Mubarak here was a relatively 
authoritarian leader in Egypt, and he was replaced by a regime 
that was leading Egypt into radical Islamic policies.
    This type of double standard that we have--Assad, I am 
sure, is guilty of the very crimes that have been suggested 
here today. I would suggest that many of our allies are guilty 
of those same crimes.
    Notable, this bombing raid that our President initiated 
after the poison gas attack killed 85 people in Syria, the 
course that was followed a couple days later where over 400 
civilians were killed by U.S. bombing raids trying to--I think 
it was in Mosul, and not intentionally, obviously. And I 
believe that it is possible that Assad's gas attacks, I don't 
know if he personally knew that it was in. I am sure our 
leaders don't know that our bombing raids are going to kill 
twice as many people.
    But it is time to stop the killing. The bottom line is 
Assad, the one thing we can know about Assad, and he is a bad 
guy, but we know that he is not such a bad guy that Syria under 
his leadership has been recognized by the Christians throughout 
the Middle East as the only place they could go and seek refuge 
and be safe under a government in the Middle East. And here we 
are having a double standard to get rid of that man.
    And I would suggest that when we went into--this is all 
caused, and we should mea culpa this on the Republican side of 
the aisle, this is caused when we had an unjustified double 
standard, as well. When our President, President Bush, decided 
to send our troops into Iraq to get rid of Saddam Hussein, who 
was also a really bad guy. But that decision to do that has 
resulted in the death of hundreds of thousands, if not millions 
of people.
    And this, as I say, focus on Assad as, of course, part of 
the double standard toward Russia, that is what this is what 
this is all about, we are going get Russia by getting his guy, 
will result in a terrorist government in that country, and it 
will result in many, many, many more civilians losing their 
lives.
    So I would suggest that, number two, I will have to--I 
oppose this, for obvious reasons, which I just stated. But I 
want to commend my colleagues for what you are trying to do to 
save people from human trafficking and these horrible Boko 
Haram-type of operations in Africa, which are just horrendous 
that they are going on in our lifetime. So thank you for the 
two of them, but I oppose the middle bill.
    Chairman Royce. Thank you, Mr. Rohrabacher. If I could give 
you maybe my perspective on how we got here with respect to 
Syria, because in 2011 I think for many of us on the committee 
there was a moment when we were glued to the set watching CNN, 
watching the people march through the streets of Damascus, and 
they were saying, ``peaceful, peaceful.'' But clearly what 
their plea was, was for changes in the regime to a system which 
recognized more of their rights.
    As we watched the cameras, we saw the regime open up with 
automatic weapons on the crowd. And I think many of us knew at 
that moment 6 years ago that things were about to spiral out of 
control with respect to what was going on in Syria.
    And I think our worry as we saw the beginning of that 
slaughter and heard the reports was that there was something 
about the way in which this effort by the regime was being 
deployed with respect to many different competing intelligence 
agencies there in Syria, hauling people in and torturing them, 
we heard the initial accounts, but here on this committee we 
saw the photographs taken by one of those Syrian Army officers, 
``Caesar,'' as he was called, who cataloged those who were 
tortured and killed in the ensuing months as thousands upon 
thousands of Syrians of every political persuasion, every 
faith, were hauled in, tortured to death, and then, I don't 
know why totalitarian regimes do this, but then numbered so 
that they could keep a catalogue of all those killed.
    And I think at that point we all knew that there was going 
to be a reaction to this. And Syria, for those of us that have 
watched the implosion, Syria has presented this case where what 
we want to do is to figure out a way to help set conditions so 
that a political process can have a chance to succeed. How do 
you do that? Well, the bill here is focused on preventing the 
Assad regime from acquiring the tools that they use to kill 
civilians.
    And it seems to me that expanding those sanctions to those 
who arm Assad's war machine has to be the place to start. And 
that is why I think Mr. Engel, who originally raised this case 
with us, as we think back 6 years ago, he was the one on point 
saying we have to figure out a way to help mediate this and to 
stop that slaughter, because we can see that there is going to 
be a blowback, a consequence to this.
    The bill does not call for regime change. I just want all 
of the members to think about what the bill says. Because even 
the Assad regime could receive relief from sanctions, it only 
requires one thing: They have to stop killing civilians, 
targeting civilians with these kinds of weapons.
    And it is not as though we think that this targeting is 
collateral damage, is it? Because we have seen the intercepts. 
We have seen the information. We know that the targeting is 
deliberate on markets, on hospitals, on schools. That is the 
problem here. That is what is creating a rallying cry. It is 
Assad's murder and torture of civilians that gives that 
rallying cry and recruitment tool for ISIS.
    So it is images of suffering in Syria that fuel the 
propaganda on the part of ISIS. This is how they took Raqqa. 
This is where they started in Raqqa, Syria. So preventing these 
atrocities this is what Mr. Engel is trying to do. We are 
undermining that, ISIS' recruitment narrative, and we are 
taking away one of the most powerful tools.
    Now, the bill in my view, looked at from that history, from 
that standpoint, is about pushing forward the conditions that 
can result in a peace agreement. This bill is about protecting 
the millions of innocent Syrians who are being bombed or gassed 
or shot or tortured.
    And, yes, I wish that Mr. Engel and I, I am a cosponsor 
here with him on the bill, could have generated the support for 
a safe zone to protect more civilians, but this is what we can 
do now, and we study a safe zone in the bill. This is what we 
can get through now. It allows for the sanctions, of course, to 
be suspended if legitimate, concrete peace talks are undertaken 
and if that killing and targeting of civilians stops.
    So with that said, I think there were some other members.
    Mr. Engel. Mr. Chairman, I am wondering if you can just 
yield to me for a moment.
    Chairman Royce. Yes.
    Mr. Engel. Thank you. Thank you very much. I want to 
reiterate or second everything you said, because I think you 
have laid it out quite perfectly in terms of how we came to 
this conclusion.
    Let us remember that Assad created the terrorist groups in 
Syria. He is a magnet for extremism because of the way he acted 
and treated. We saw the Arab Spring happen in many different 
countries, and it happened in Damascus, it happened in Syria 
with just average people saying that they were fed up and 
wanted a change. And Assad could have responded differently, 
but he responded by killing all these people, by mowing them 
down, by having his goons go after people. He started this. 
That is why he is different than everybody else in the region.
    Yes, it is a region of bad actors and bad players, but 
Assad has been a personal murderer. When we saw those horrific 
images here, Caesar brought them here in this committee, it was 
like looking at something from the Holocaust. It was just 
grotesque, just grotesque. And the numbering of the bodies.
    And so to somehow say that, well, they are all the same, 
and we are going to wind up with somebody worse, and we are 
going to this, and we are going to that--look, I think the 
United States made a terrible mistake 4 years ago or 5 years 
ago. I think that we should have aided the Free Syrian Army 
when they were a real viable force and had started to win a lot 
of events on the battlefield. They did very, very well.
    And the President's national security team, President 
Obama's national security team came up with a plan which would 
have aided them, and I supported that plan, and so did the 
whole team, but the President did not. And so we never 
implemented it, and I think that was a very big mistake.
    And then as the years went on, we didn't protect the 
civilians. There should have been zones to protect civilians. I 
mean, easier said than done. It would have required a 
commitment on the part of the United States. But the fact of 
the matter is we now have what we have, and the stepping back 
and the letting Russia get involved, and now they are involved.
    People are looking for the United States to lead. And I 
think that we can lead. And I think that we should lead. And I 
think that the initial strike that President Trump called in 
Syria was something that was worthwhile, and I supported it.
    But the question now is, what do we do? And the President 
needs to come to us with a plan, and the President needs to 
involve Congress. I feel very strongly about that. But let's, 
when we look at history, let's remember this was started by 
Assad, this was sanctioned by Assad, the murders happened with 
Assad. And so we just cannot say that he is one of many or if 
you replace him you will get somebody worse.
    This bill attempts to be punitive and prevent people from 
propping up the Assad regime, from trading with the Assad 
regime, from getting money to the Assad regime. I don't want to 
look back years from now and say that I did nothing while 
murder was being carried on, murder of innocent civilians.
    So I thank you, Mr. Chairman. I yield back.
    Chairman Royce. Thank you.
    I had yielded time, so we will go first to Mr. Deutch and 
then to Mr. Poe.
    Mr. Deutch. Thank you, Mr. Chairman.
    I am certain, Mr. Chairman, that my friend from California 
did not mean what he said when he said that the allies do the 
same thing as Assad. I would like to give him the opportunity 
to correct that, and let me explain why. Let me explain why 
first.
    Mr. Rohrabacher. Well, good.
    Mr. Deutch. There is no way that anyone in this country 
could suggest that the United States or any of our allies would 
be responsible for this horrific attack on his own people, for 
the deaths of hundreds of thousands of people, repeated use of 
sarin and chlorine in Damascus, in Idlib, in Aleppo, in Hama. 
Five million refugees. Five million refugees. So much of what 
we do in this committee and in this Congress we are doing to 
address the issue of Syrian refugees as that has impacted 
global affairs and stems from the actions of this brutal 
dictator.
    Also, there are 6 million internally displaced Syrians, 6 
million, and over 13 million people in Syria are desperately in 
need of humanitarian aid that this brutal dictator will not 
allow them to get.
    To suggest that Assad is some great protector of 
minorities, for the chairman of the Foreign Affairs Committee 
to have to try to justify taking action to try to address a 
dire situation caused by a brutal dictator, a brutal dictator 
who, let's also remember--let's remember how he has conducted 
himself. Barrel bombs dropped on schools, we have had testimony 
about that in this committee over the years. The constant 
attacks on civil targets--on mosques, on markets, on hospitals.
    I am sure a number of us met with the Syrian doctors who 
came to the Hill, who described conducting operations in 
hospitals as the bombs were falling by Assad's forces. I am 
sure a lot of us were in this committee hearing when the 
doctors, the brave doctors, Syrian Americans who went to Syria 
to try to provide some assistance, talked about what it is like 
to stand in a schoolyard and to look up into the sky and to see 
a black dot come across the sky, knowing that it was one of 
Assad's helicopters, and then to watch several other black dots 
appear in the sky, knowing that they were barrel bombs, knowing 
they were being dropped for the sole purpose of inflicting the 
largest number of casualties against civilians.
    I cannot sit here and allow this notion that our allies do 
that, that our allies behave in the same way as this brutal 
dictator, that somehow Assad is some great humanitarian. His 
record in his country is appalling. We are dealing with this 
all, and we are dealing with the fallout all throughout the 
world.
    There is so much more that we should be doing. I hope we 
have the opportunity to continue our discussions about refugees 
and addressing needs around the world and the assistance that 
we are providing and ensuring that our allies are doing their 
part to provide their assistance, as well.
    But I just can't accept in the midst of a markup of a piece 
of legislation, which was spurred on by some very difficult 
hearings with Caesar, to allow the suggestion that somehow this 
is all just some way to get back at Russia. Sometimes a brutal 
dictator is just a brutal dictator and that it is not always 
about Russia. There are plenty of concerns with Russia's role 
in all of this.
    But let's for a minute in a bipartisan way acknowledge that 
this horrific war that has led to the deaths of hundreds of 
thousands, and millions of others whose lives have been turned 
upside down for generations, let's find way to come together 
and pass this piece of legislation.
    And I would yield to my friend to acknowledge that our 
allies do not engage in all of those same activities.
    Mr. Rohrabacher. Well, I have 20 seconds left. Let me just 
note, your answer is no, you are wrong. Our allies do this. And 
you can close your eyes all you want, close your eyes all you 
want.
    Mr. Deutch. Reclaiming my time.
    Mr. Rohrabacher. You yielded to me the time to answer some 
of your things there.
    Yes, Assad is known throughout that region as the protector 
of Christians. That is the place--I have had dozens and dozens 
of Christians come into my office to tell me that fact. And 
they come from other countries because they are persecuted in 
those other countries.
    Number two, there is collateral damage that our allies--and 
it is rightful to say, yes, Assad may be intentionally 
targeting civilians, where when we kill 400 people the day 
after he killed 85 it was a collateral damage, correct.
    But we know that the end result of all of this, just like 
with--everything you just said could have been said and was 
said about Qadhafi, as well as Mubarak, as well as others, and 
what did it lead to? No, it didn't lead to a less repressive 
regime, it led to radical Islamic terrorists taking over 
governments, who do commit these type of crimes and target 
people throughout that region, innocent people, in order to 
terrorize the West and terrorize them.
    Mr. Deutch. I have nothing further. I yield back, Mr. 
Chairman
    Chairman Royce. We will go to Mr. Poe and then to Lois 
Frankel.
    Mr. Poe. I thank the chairman.
    I want to pat my foot and say ``amen'' to what the chairman 
and Mr. Engel said regarding the issue of Assad and Syria. But 
I want to focus on the other two bills that we have before us.
    H.R. 1645, the Targeted Rewards for Global Eradication of 
Trafficking. Congress created the Rewards for Justice and 
Transnational Organized Crime Rewards Program so that we could 
go after the bad guys like terrorists and international 
criminals. These programs allow the State Department to offer 
monetary rewards for capture and conviction of these outlaws, 
very similar to local crime-stoppers programs that offer reward 
money for information to criminals and that money is used to 
help capture them. This program does something very similar and 
is effective.
    Thanks to the TARGET Act, states can go after another set 
of horrible individuals, human traffickers, the scourge on 
humanity that is taking place in our lifetime. The United 
States must use every tool at our disposal, including rewards, 
to take human traffickers off the streets and put them in jail 
where they belong. I have spent much time here in DC working to 
get justice for victims of human trafficking, and I hope that 
one day this will not be a major issue because the problem is 
solved. But we have to get the criminals.
    I am proud to cosponsor this bill, which will help get 
these slave traders behind bars and in penitentiaries where 
they belong, H.R. 2200. As I have mentioned, human traffickers 
are the scourge of our entire global culture today. They are 
the modern slave traders. And they do it for money, and they 
traffic women and children, labor trafficking and sex 
trafficking, all about money. And they don't care that people 
are--that their identities are stolen from them, their self-
worth is stolen from them. And I am glad this legislation helps 
move forward in that.
    I am proud to be a co-chair of the Congressional Victims' 
Rights Caucus with my friend Jim Costa from California, and we 
have seen, like many on this committee, firsthand the 
devastating effects of the modern day slave trade, not just 
internationally, but here in the United States. I give my 
wholehearted support behind this bill, which is a comprehensive 
approach to stop human trafficking.
    The victims of human trafficking cry out for help, help 
anywhere they can get it. And once they are in the slave trade 
many of them never recover because of the things that have 
happened to them. So that is why it is important that we move 
quickly to find ways to save them, rescue them, restore them, 
and then put the outlaws in, I will say, prisons now, rather 
than what I was going to say. But we need to take them and put 
them where they will not be able to contact any victims and 
steal their souls away from them anymore.
    The slave trade exists in the world, labor trafficking, sex 
trafficking, and we have a moral, legal obligation to do 
everything we can to take care of victims and stop this 
activity in our lifetime.
    So I would yield back to the chairman. That is just the way 
it is.
    Chairman Royce. Okay. We go to Lois Frankel of Florida.
    Ms. Frankel. Thank you, Mr. Chair.
    You know, people often ask me back home how could I take 
being in Congress because we are always fighting with each 
other. And I always point to our work on the Foreign Affairs 
Committee.
    And I did want to say to our leaders, to Mr. Royce and Mr. 
Engel, thank you for your exemplary leadership. And to Mr. 
Smith and Karen Bass, thank you so much.
    If I may diverge just a moment, you know, I represent South 
Florida, beautiful Palm Beach, the home of Mar-a-Lago. It is a 
beautiful place. But people will often look at photograph of 
the beaches and they will say to me: Well, what is the beach 
like?
    It is a beautiful beach, I say. Well, you need to come to 
see the beach for yourself because here is what you can't tell 
from a photo. You cannot tell how hot the sand is when you step 
on it or feel the breeze or smell the salt of the water. I 
said: You have to come to South Florida and you get to see it 
yourself.
    The reason I say that is because one of the things that I 
have enjoyed and learned so much from being on this committee 
are the codels we go on, which are the trips, which are 
bipartisan, and they are hard, very hard, but you learn so 
much. And I want to talk about a couple of the trips that I 
took that really relate to these bills.
    The first one, I think Mr. Poe was just here a moment ago, 
but Mr. Poe and I went to Peru a couple years ago, and today I 
am still haunted by that trip. The trip was to two different 
shelters in Peru where they were sheltering young girls that 
had been trafficked. One group had been slave trafficked into 
labor, the other into sex trafficking.
    I am repeating, I guess, what some of my colleagues already 
said, that this trafficking is a global crisis that is hurting 
men, women, and children all over the world and right here in 
our country, the number two criminal enterprise on earth. These 
young girls who we met, I can just see their--I see their eyes. 
They were, like, blank.
    One set of girls we met, they came from very impoverished 
families where literally the families didn't have enough money 
to put food on the table for all their children. And they were 
approached by traffickers who told them: We are going to 
educate your girls and give them a better life. They literally 
stole these girls away when they were just in their--they could 
be 6, 7, 8 years old--told these young girls once they got them 
away that their parents didn't love them anymore, and they put 
them in the most horrific situations where some of these girls, 
and I am not exaggerating, all they did was peel potatoes from 
the time the sun went up to the time the sun went down for 
years. That is all they did. No education, no nothing. No joy, 
no recreation.
    The other set of girls had been literally kidnapped, put in 
trunks, beaten and abused and forced into sex slavery. And 
fortunately for these young ladies, they were now in shelters. 
They had a long way to go.
    When I got back home I had a roundtable, and I met a young 
woman in south Florida who came from a vulnerable background, 
who had gone to a slumber party at a girlfriend's house, and 
ended up being enticed in sex slavery by the girlfriend's 
father. So I vigorously support both these bills that pertain 
to trafficking.
    And then in terms to the Caesar Syria Protection Act, I 
remember, Mr. Deutch, we went to Jordan, and we met with 
refugees. If you will just indulge me on this, because I cannot 
forget the conversation we had with refugees who had fled 
Syria. They were women with their children. They had no idea 
where their husbands were, their sons were, their brothers 
were, because they had been captured by Assad, killed by Assad. 
They didn't know where they were. They were not allowed to 
work, living very meagerly. And really what they wanted was to 
return and have a life.
    Mr. Engel, I have to agree with you and Mr. Deutch when you 
say that what is happening in Syria is the greatest 
humanitarian crisis since World War II. Millions have been 
displaced, as well as hundreds of thousands killed, and it is 
destabilizing the world. It is not just about what is happening 
in Syria. What do you think Brexit is about or Le Pen in France 
is about? This is a reaction to the refugees who are trying to 
flee this horrific situation in Syria.
    And I just want to say that in terms of Assad supporting, 
backing the Christians, I will say this, that the Syrian 
Christians for Peace is a coalition that supports this bill. 
And I feel like that one day, one day, unfortunately we are 
going to look back, we are going to look back and say: Why did 
we not do more? I am looking back right now and saying that. 
And everybody on this committee should say this.
    But this is a great bill, and I am glad we are doing 
something, and I hope we can get this through. And I yield 
back.
    Chairman Royce. We go now to Adam Kinzinger and then David 
Cicilline.
    Mr. Kinzinger. Thank you, Mr. Chairman. I want to echo your 
remarks, basically the remarks of everybody except Mr. 
Rohrabacher.
    You know, Dana, you are my friend, but I literally, 
something happened during that, I officially ran out of WTFs 
during that entire speech.
    To put a moral equivalency on our action in Mosul to what 
Bashar al-Assad is doing made me honestly want to throw up. It 
was embarrassing. I think to put a moral equivalency to any of 
our allies--and, look, I will admit, we have some allies that 
are not the best of human beings, but I can't name an ally we 
have right now that indiscriminately has killed 500,000 people 
with barrel bombs and chemical weapons.
    I mean, look, I think it was Mr. Deutch that said something 
about the Russia issue--it doesn't always have to be about 
Russia. And, look, Russia plays a very bad role in Syria. This 
bill is not about Russia. This bill is about the fact that 
there is a guy that not only in the process of combat kills 
civilians--and it is not an accidental killing.
    I mean, we know that there are collateral damages that 
happen in war, and it is unfortunate, it is a fact, but he 
deliberately targets innocent civilians. Because the regime 
believes that if you kill a fighter, yeah, you get some 
benefit, but if you kill a child, the collective pain that you 
are putting on the population is hopefully enough to get them 
to relent. So they kill more and more children. They are 
totally unfazed by a child gasping for his or her last breath 
because they are choking to death on chemical weapons.
    Chemical weapons are terrible, but maybe it is a barrel 
bomb or a helicopter pilot flies and a couple guys in the back 
have a barrel that is just loaded up with a bunch of garbage 
that explodes and kills things, and just throw it out the back, 
hopefully timing it just correctly that it kills the most 
people possible.
    But beyond the combat, Mr. Chairman, beyond the combat 
deaths, we saw the tortures that happen. I was in Auschwitz 2 
or 3 weeks ago, over 1 million people killed in gas chambers 
gasping for their last breath, and we have Auschwitz maintained 
as basically almost exactly what it was left as so that we 
remember to never, ever forget what humanity is capable of and 
to defend against it. And we see the same thing happening in 
Syria.
    And it is not just the combat deaths, it is the pictures of 
the bodies that have markings next to them documenting how they 
were tortured, documenting starving to death, documenting all 
kinds of terrible things that when I went through SERE training 
and survival in the Air Force they tell you when you are 
captured, this is the kind of stuff that can happen to you, and 
it was way even beyond that.
    For any kind of moral equivalency to be leveled with us 
especially, or any of our allies, to the brutality of this 
demonic man----
    Mr. Rohrabacher. Would the gentleman----
    Mr. Kinzinger. No, I am still going. You have had enough. 
You have had enough time. I ran out of----
    Mr. Rohrabacher. Are you suggesting that----
    Mr. Kinzinger. This is my time. If the gentleman would 
please allow me to use my time.
    Mr. Rohrabacher. When you refer to another member----
    Mr. Kinzinger. You had, uninterrupted, 6 minutes to spew 
Vladimir Putin's propaganda. I am defending against that.
    Mr. Rohrabacher. When you refer to another member, the 
member has a right to ask a question.
    Mr. Kinzinger. Not when I have the time. I think we are 
cool. We know where you stand.
    So anyway, Mr. Chairman, I am just blown away by all of 
that. And I have to tell you, Bashar al-Assad, I wish he would 
be dead. But that understanding, I hope we can get to a 
negotiated solution.
    And I will not yield. I will yield back my time, Mr. 
Chairman.
    Chairman Royce. The gentleman from California was 
referenced, and, therefore, we yield him a minute.
    Mr. Rohrabacher. Thank you, very much, Mr. Chairman, which 
is the custom here, which is the courtesy custom when you 
mention someone else.
    Mr. Kinzinger. You can argue custom. Go ahead.
    Mr. Rohrabacher. I have the time.
    Not one moment do I believe I used the words ``moral 
equivalency.'' Let me just put that in the record. That is all 
I have to say right now. To repeat over and over again as if I 
said that is, again, not only--not only is it--I am hoping it 
is not malicious and that you intentionally are not trying to 
create that image for me.
    Look, it is difficult for someone who disagrees with the 
majority to stand up and have the courage enough to say, ``You 
are wrong, and this is where you are wrong.'' And that is fine. 
But to have, then, the answer be a dishonest analysis that I 
have said something that I didn't say is wrong.
    I will leave it at that.
    Chairman Royce. We now go to Mr. Cicilline and then Mr. 
Mast.
    Mr. Cicilline. Thank you, Chairman Royce and Ranking Member 
Engel, for holding this markup today to consider three 
important bipartisan pieces of legislation, all of which I 
support.
    The issue of how to deal with the Assad regime in Syria is 
one of the most pressing and difficult foreign policy 
challenges we face as a Nation, and I am very pleased to see 
bipartisan legislation being moved forward today by our 
committee and want to, of course, associate myself with the 
eloquent remarks of Mr. Deutch and Mr. Kinzinger with respect 
to the conduct of the Assad regime. But I have to say that I am 
disappointed that another extremely serious challenge remains 
inadequately addressed by this committee, and that is the issue 
of Russian meddling in democratic elections. It has been almost 
2 months since the hearing this committee held on Russian 
election interference was conducted. And during that hearing, 
we heard uniformly from our witnesses that Russia is actively 
engaged in cyber warfare, propaganda, and hacking in order to 
undermine democratic elections and weaken Western institutions, 
such as NATO. At the time, Chairman Royce stated correctly 
that, and I quote, ``Russia has pumped tens of millions into 
disinformation and propaganda targeting to the U.S. and Europe. 
For too long the United States' response to Russian aggression 
has been weak and ineffective, and this has to change.''
    I couldn't agree more, and that is why I hope we will soon 
consider a number of pieces of legislation that have been 
introduced in the House to deal with Russia's continued hacking 
and cyber warfare. Specifically, I have introduced a bipartisan 
resolution, along with my colleague Peter Roskam, H. Res. 172, 
which condemns Russia's election interference in Europe and 
expresses a sense of Congress that it is U.S. policy to 
sanction individuals engaged in hacking, cyber warfare, or 
other election interference activities.
    I thank the many of my colleagues on both sides of the 
aisle who have already cosponsored this legislation and ask 
that all of you consider adding your names.
    Additionally, my colleagues Ranking Member Engel and 
Congressman Connolly have also introduced legislation, the 
SECURE Our Democracy Act, which would sanction any foreign 
individual or entity found to have unlawfully meddled with a 
Federal election and would bar entry to the United States and 
freeze U.S.-based assets of anyone involved in such 
interference.
    When reports that French Presidential candidate Emmanuel 
Macron was the target of Russian hacking attempts last month 
and with the second round of French Presidential elections 
scheduled for next week, we must send a strong message to the 
Russian Government that their attempts to influence democratic 
elections will not be tolerated. If we don't unequivocally and 
on a bipartisan basis send the message that interference in 
democratic elections will have consequences, we diminish 
American leadership, we weaken our alliances, and we further 
endanger Western democratic institutions. And I sincerely hope 
that we can come together to pass legislation that is strong 
and clear in demonstrating that democratic institutions are 
sacred, and the United States will respond to those who attempt 
to interfere in free and fair elections.
    Now, turning back to the legislation at hand this morning, 
I want to emphasize my strong support for the Caesar Syria 
Civilian Protection Act, to which I am a cosponsor. I want to 
thank the chairman and ranking member for your leadership on 
this issue. If enacted, this bill will require sanctions 
against those who aid the Assad regime in acquiring goods that 
support the regime, military capabilities, as well as those who 
are responsible for or complicit in human rights abuses.
    There is abundant evidence that both war crimes and crimes 
against humanity are being committed in Syria under Bashar 
Assad's regime. It is estimated that Assad is responsible for 
the deaths of more than 480,000 civilians. That number is 
staggering.
    The United States cannot stand silent if the Assad regime 
continues to commit these horrific atrocities. And I thank my 
colleagues for introducing this legislation and look forward to 
supporting its passage and signing into law.
    I am also proud to be a cosponsor to two bills dealing with 
human trafficking today. Modern-day slavery, the act of human 
trafficking, is repulsive and a violation of human rights. It 
is absolutely critical that we do everything in our power to 
prevent human trafficking while both improving and expanding 
services for trafficking victims. H.R. 1625, the TARGET Act, 
and the H.R. 2200, the Frederick Douglass Trafficking Victims 
Prevention and Protection Reauthorization Act, are two 
important bills that will help us combat human trafficking. 
Under the Targeted Rewards for Global Eradication of Human 
Trafficking Act, U.S. law enforcement officials will have the 
ability to use reward money for the capture or conviction of 
wanted terrorists and transnational criminals. The continued 
and strengthened use of a successful rewards program will help 
us in our fight to protect U.S. citizens and interests.
    And the Frederick Douglass Act incorporates a wide array of 
prevention and protection policies designed to prevent human 
trafficking and ensure that proper training and protocols are 
in place. We have to do everything we can to make sure that 
becomes law.
    And, again, I thank the sponsors for the work that they 
have done on this legislation and reemphasis my strong support.
    And I yield back the balance of my time.
    Chairman Royce. I know the gentleman from Rhode Island is 
disappointed that his resolution, his and Mr. Roskam's 
resolution, condemning Russian interference in European 
elections is not on the agenda today. He knows how I feel about 
the issue. In fact, his resolution reads a lot like the opening 
statement I have made at our recent hearings on this issue. But 
this request came to us late. So I am willing to work with him 
and the ranking member to see if it is something the committee 
would support moving ahead with.
    I would share with you that I also had a resolution that I 
wanted to bring up today, one on Iran's missile program, but 
after consultation, our goal here is to reach sort of the 
critical mass and support for these resolutions as we move 
forward.
    So I offer you my support in that endeavor, Mr. Cicilline. 
And----
    Mr. Cicilline. And I would certainly be honored to have the 
chairman join as a cosponsor of the resolution, if you would 
consider that.
    Chairman Royce. I am considering that.
    Mr. Cicilline. Thank you.
    Chairman Royce. And I appreciate your dogged determination 
here on sending a message. And it is one we, I think, all 
should be engaged in messaging.
    We now go to Brian Mast of Florida.
    Mr. Mast. I also want to thank the chairman and Ranking 
Member Engel for this markup, but for also working with me to 
en bloc an amendment to 1677 which does an outstanding job 
directing the administration to report to Congress on the 
potential protection to the Syrian people by establishing a no-
fly zone.
    You know, the reality is, what goes on in Syria does affect 
every single one of us in this room and across this Nation. I 
have friends who are in uniform who have already bled in Syria. 
I have friends that will be heading over there this summer who 
will spend their summer on the ground there during what we 
always called the peak fighting seasons. So it affects every 
single one of us regardless of where our hometowns are.
    But while they are evaluating the benefits of a military 
tactic like no-fly zones that can stop barrel bombings and 
other strikes, my amendment directs the administration to 
report on the vital information on which any larger military 
strategy would most certainly be based upon. And with the 
adoption of this amendment, the administration is directed to 
give us the info that we need and that we deserve: Who are the 
ground forces in Syria that we are partnering with? What is the 
center of gravity for both partners and adversaries? What are 
their capabilities, their requirements, their vulnerabilities? 
We in the military, we call that a salute report: The size, 
activity, location, unit, time, equipment. What is that 
information? What the administration's strategy does to 
mitigate the vulnerabilities of our partners.
    And what I think is most important: How would success in 
Syria be measured? We need to know that information. We deserve 
to know that information.
    And I just wanted to say that I appreciate the bipartisan 
collaboration that went into drafting this amendment.
    And I do yield back any time that I have remaining.
    Chairman Royce. Thank you.
    I want to thank Mr. Mast for his good contribution to the 
Syria bill.
    And we go now to Tom Suozzi of New York.
    Mr. Suozzi. Thank you, Mr. Chairman.
    Politics in this country is perceived by the general public 
as being so divided in so many different ways. And it is such 
an honor to serve on this committee with you as chairman and 
with Mr. Engel as the ranking member. And also I want to 
associate myself with the compliments that were made by Mr. 
Smith earlier today and Karen Bass. It is really inspiring that 
so many people can work together in this committee to try and 
create a more just and safe world. And it is really a noble 
goal, and I hope it will be an inspiration to our colleagues in 
the rest of the Congress.
    I support all three bills today. I think they are excellent 
work by everybody who has put them together here. I am a proud 
cosponsor, one of the original cosponsors, of the Caesar Syria 
Civilian Protection Act, and I want to speak directly about 
that bill.
    It is so important that we send such a clear message that 
we need to do everything we can in this country to contain the 
chaos and reduce the conditions causing this mass migration 
from Syria to take the wind out of the sails of the extremists 
and to alleviate the human suffering. Every tool in the toolbox 
has to be used to try and address these underlying grievances 
of the millions of Syrians who are seeking meaningful political 
reform and economic reforms. The numbers speak for themselves 
that have been mentioned here today with the hundreds of 
thousands of people that have been killed, the millions of 
people that have been displaced, and the war crimes that are 
being committed in this region are so horrific. And we need to 
do what we can to try and address this regime and their 
backers, particularly Russia and Iran.
    Syria is really one of the tests of our generation. And the 
tyrants of the world will take note of how we deal with this 
crisis. And our moral standing and our national security are at 
stake. This bill is a step in the right direction. It 
authorizes the White House to impose sanctions on the parties 
that enable the regime and its backers to continue their 
unabashed campaign against civilians. And these sanctions will 
be suspended upon meaningful political negotiations, thereby 
encouraging the ultimate goal of a diplomatic solution to this 
conflict. It also authorizes support for organizations 
conducting war crimes investigations on all sides so that truth 
and reconciliation can hopefully one day be realized.
    I do want to say, though, that we are still waiting for 
this administration to give us a Syria policy. While the April 
6th missile strikes against the airfield in Syria were decisive 
action that I supported, they were an isolated act and not a 
strategy. And we are left to have to wonder about how the 
administration will react to this crisis. We need to hear from 
the administration about how the ideas of safe zones that they 
are proposing will actually be implemented.
    After Assad's most recent chemical attacks, Israeli 
President Reuven Rivlin said, in solidarity with the Syrian 
people, ``We know exactly how dangerous silence is, and we 
cannot remain mute,'' in reference to the international 
community's silence during the Nazi campaign against the Jews. 
Last week, I am sure most of the members of this committee 
commemorated Yom HaShoah, and many of us reiterated that the 
lessons of the Holocaust cannot be forgotten. One such lesson 
is that, under the cover of war, the most heinous and heart-
wrenching crimes can be committed against the most vulnerable 
people. We cannot--and we cannot--remain mute.
    So I would like to, again, emphasize my support for all 
three of these bills. But I would also like to, again, thank 
Ranking Member Engel and Chairman Royce for their leadership in 
advancing the Syrian legislation.
    Thank you very much.
    Chairman Royce. Thank you.
    We go now to Ann Wagner--and we thank Ambassador Wagner for 
her contribution to the underlying bill--and then to Mr. 
Espaillat from New York.
    Ann Wagner from Missouri.
    Mrs. Wagner. I thank you, Mr. Chairman. And I thank you for 
organizing this important markup.
    I am pleased that the Frederick Douglass Trafficking 
Victims Prevention and Protection Act and the TARGET Act will 
improve America's fight against sex trafficking and forced 
labor both at home and worldwide.
    I am also pleased to cosponsor the Caesar Syria Civilian 
Protection Act and support the prosecution of war criminals who 
have committed barbaric crimes against Syria's innocent 
civilians. It is high time for Congress to move this important 
bill across the finish line.
    It is my particular honor to offer an amendment today to 
TVPA that will press countries on the State Department's 
Trafficking in Persons Tier 2 Watch List to take concrete 
actions to combat human trafficking. It will specifically 
require State Department to justify a country's TIP ranking, 
linking its actual actions to the minimum standards enumerated 
in the law.
    In addition, the amendment directs the Secretary of State, 
when determining a government's ranking, to consider the extent 
to which that government is, one, devoting sufficient resources 
to investigate and prosecute human trafficking cases; two, 
providing victim restitution; and, three, protecting and 
rehabilitating victims.
    The Secretary must also consider the extent to which the 
government has consulted with civil society organizations to 
improve victim service provisions, the extent to which 
government officials participate in or facilitate human 
trafficking, and whether the government has policies that 
support the participation in or facilitation of forced labor 
and human trafficking by government officials.
    The amendment will increase government transparency by 
directing the Secretary of State to publish online a 
justification for any Tier 2 Watch List waiver, detailed 
evidence demonstrating the country's actions to combat 
trafficking, and a written plan submitted by each country to 
reach compliance.
    Together, Mr. Chairman, we will strengthen the TIP program 
and help prevent trafficking, I believe, across the globe.
    I ask my colleagues to support my amendment, and I salute 
Chairman Royce, the ranking member, and Congressman Smith for 
these tremendous bills, and I am delighted to support them all.
    I yield back.
    Chairman Royce. I see Mr. Castro is next in the queue, Mr. 
Espaillat. We go with Mr. Castro first and then you.
    Mr. Castro.
    Mr. Castro. Thank you, Chairman. I want to say thank you to 
Chairman Royce and also Congressman Smith for your legislation 
on combatting human trafficking globally, but also, hopefully, 
domestically. In many places in the United States, including, 
unfortunately, the home of myself and Congressman Poe, we have 
failed the children of this country. Specifically, the State 
government in Texas has failed the children of this country.
    And I want to read you, quickly, an example of what I am 
talking about when I say that.
    Karen Bass mentioned that many of these human trafficking 
and sex trafficking victims are folks who have gone through the 
foster care system. In Texas, the State government has not 
funded the foster care system in the way that it should. And 
so, this year, there have been articles all over the news about 
how foster care kids are being made to sleep in State offices 
because there is nowhere else to put them.
    So here is a headline from April 14, 2017, just a few weeks 
ago: ``Children Sleeping in CPS Offices''--child protective 
services' offices--``Spiked in March, Mystifying Texas 
Officials.'' Children sleeping in State offices due to foster 
parent shortage because the State government has not properly 
dealt with that program.
    With respect to human trafficking and sex trafficking 
victims, the situation is even worse. Texas is reportedly the 
State in the Nation that has the most human trafficking going 
on in it. If you think about it, because of the corridors, I-35 
going from south to north, I-10 going from California to 
Florida, it makes it a hub for human trafficking in this 
country. Yet the State government, the Governor, Lieutenant 
Governor, the State leaders have not taken this problem 
seriously. They have failed the children of Texas.
    So, a few months ago, The Texas Tribune did a whole series 
on human trafficking in Texas. And this was one of the 
headlines from one of the stories. It says: ``Texas Couldn't 
Help This Sex-Trafficked Teen, So Authorities Sent Her to 
Jail.'' No one wanted Lena behind bars. She was not a 
prostitute. She was a child who had been sexually exploited. 
But teenage sex trafficking victims in Texas end up in jail for 
one simple reason: There is nowhere else for them to go. The 
State government--this is the Texas of the Texas miracle, one 
of the top 12 economies in the world that brags about how great 
its economy is and has for years; its State leaders brag about 
how many jobs they have created--have literally been sending 
these sex trafficking victims, human trafficking victims, to 
jail because they simply don't care enough to deal with the 
problem.
    So I want to thank you two gentlemen for what you are doing 
in this committee to deal with this issue, mostly globally, as 
we try to help other countries combat this issue. And I know 
this is not lost on you because I know how much you care about 
the issue. But I would remind all of us that this is still a 
very big problem within our own United States.
    And I was moved by Lois Frankel's description of going to 
Peru--I think she said she went with Congressman Poe--and what 
she saw there. But she did mention that there were shelters for 
the girls there. I would suggest that there is a visit to be 
made to the State of Texas to see the horrible job that the 
State has done in allowing these victims to end up in jail.
    Thank you guys for your legislation.
    I yield back.
    Chairman Royce. Mr. Espaillat of New York.
    Mr. Espaillat. Thank you, Mr. Chairman, Ranking Member 
Engel.
    First, let me thank you for the bipartisan tenor with which 
this committee handles its business while allowing diverse 
opinions to be articulated. I think it is an example of how we 
can get things done and move forward from both sides of the 
aisle.
    The American people have this to learn: ``Where justice is 
denied, where poverty is enforced, where ignorance prevails, 
and where any one class is made to feel that society is an 
organized conspiracy to oppress, rob, and degrade them, neither 
person nor property is safe.'' Frederick Douglass said this, 
and today we have the great honor to vote on legislation that 
bears his name.
    The Frederick Douglass Trafficking Victims Protection Act, 
as well as the TARGET Act, take vital steps forward in 
addressing a form of modern-day slavery, because that is what 
human trafficking is: Modern-day slavery. About 18,000 people 
are trafficked to the United States each year, many are women 
and children, and most are indebted to smugglers and 
traffickers. The Douglass TVPRA Act also adds new best 
practices and accountability mechanisms for the administration 
to properly implement previous antitrafficking legislation. And 
the TARGET Act authorizes law enforcement to offer significant 
rewards for information leading to the arrest or conviction of 
many human traffickers internationally.
    I am also proud to lend my support for the Caesar Syria 
Civilian Protection Act of 2017. Our response to the atrocities 
and the ongoing slaughter and war crimes committed by the Assad 
regime must be part of a comprehensive strategy plan to end 
fighting in Syria, which must be approved by Congress. This 
bill requires the President to impose new sanctions on anyone 
who does business with or provides financing to the Government 
of Syria, including Syrian intelligence or security services or 
the Central Bank of Syria. And it also authorizes assistance to 
meet immediate humanitarian needs. I mourn for all those 
innocent people whose lives have been taken away by the Assad 
regime, particularly the many children who died in the barbaric 
attacks. And I am proud to lend my support to this legislation.
    Let me just finish, Mr. Chairman, by adding that much has 
been said about this piece of legislation, and it generated 
some very energetic debate. But we also must not forget that 
the Assad regime is aided and abetted by Russia. This is not a 
bill about Russia, but they would not be as aggressive as they 
are today had they not been, and continue to be, aided and 
abetted by Russia.
    Thank you Mr. Chairman.
    Chairman Royce. Thank you, Mr. Espaillat.
    Other members seeking recognition?
    We will go to Mr. Bill Keating of Massachusetts.
    Mr. Keating. Thank you, Mr. Chairman.
    And I would like to thank you and the ranking member once 
again for the three more examples. And I am proud to be a 
cosponsor of the first two of these.
    And this is another example, I believe, of this committee, 
which has had an important role since I have been in Congress, 
really moving forward again on important issues and, I must 
say, at a time when I think it is more important than before 
because we are getting, at these stages of the administration, 
very mixed messages around the world. And this committee has 
continued to be resolute. It has been clear. And it has been 
bipartisan in what has moved forward. I hope that we can be 
given the opportunity to have more of a role because it is 
critically important right now that, not only domestically, but 
internationally, people know where we stand on issues.
    And along those lines, I would just want to clarify a 
couple of things, in my opinion, that were mentioned here in 
the discussion this morning that I think are important in terms 
of clarity.
    Number one, the Caesar photos that this committee has had 
the opportunity to see indeed included Christian and Muslim 
torture victims in those photos--Christians, as well--showing 
that Assad's torture machine has not just protected Christians. 
We should be clear on that. The Assad regime is also 
responsible for over 60 percent of destroyed churches in Syria. 
We want to be clear on that as a committee and speak as loudly 
as we can. And it also underscores the importance of the bills 
in front of us today.
    Secondly, it was mentioned that H.R. 1677, the Caesar Syria 
Civilian Protection Act, targeted Russia. Well, indeed it did, 
and for good reason. And that is because, again, to try and be 
very clear, there are some in the administration that will say 
the Russians are teaming with us in our fight against ISIS, but 
the overwhelming evidence is that they are disproportionately--
and that is dealing with military alliance with Assad's 
regime--attacking Syrian civilians in the very measures that we 
are talking about, the atrocities we are talking about here. 
And as they do that, it is wholly appropriate that we include 
them in sanctions. They are, in effect, including themselves in 
these sanctions rather than being included or targeted 
directly.
    So I wanted to be clear on those measures.
    I want to thank the members and the leadership of this 
committee for their work. I am encouraged that we can go 
forward and continue to be a very strong, resolute, clear, and 
bipartisan voice on the important issues that affect the United 
States of America and our allies around the world.
    Thank you.
    I yield back.
    Chairman Royce. I thank Mr. Keating.
    Hearing no further requests for recognition, the question 
occurs on the items considered en bloc.
    All those in favor, say aye.
    All opposed, no.
    In the opinion of the chair, the ayes have it. The measures 
considered en bloc are agreed to.
    Without objection, the measures considered en bloc are 
ordered favorably reported, as amended. Staff is directed to 
make any technical and conforming changes.
    The chair is authorized to seek House consideration under 
suspension of the rules.
    That concludes our business for today.
    I want to thank Ranking Member Engel.
    I want to thank all our committee members for their 
contributions and assistance in today's markup.
    The committee stands adjourned.
    [Whereupon, at 11:29 a.m., the committee was adjourned.]

                                     
                                  

                            A P P E N D I X

                              ----------                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
